App. 1
In the
United States Court of Appeals
for the Seventh Circuit
-----------------------------------------------------------------------

NO. 18-1479
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
MICHAEL BONIN,
Defendant-Appellant.
-----------------------------------------------------------------------

Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 15 cr 22-1—Robert W. Gettleman, Judge.
-----------------------------------------------------------------------

ARGUED FEBRUARY 7, 2019 — DECIDED JULY 26, 2019
-----------------------------------------------------------------------

Before BAUER, HAMILTON, and BRENNAN, Circuit
Judges.
BRENNAN, Circuit Judge. Justice Holmes introduced a mainstay of First Amendment jurisprudence
when he wrote: “The most stringent protection of free
speech would not protect a man in falsely shouting fire
in a theatre and causing a panic.” Schenck v. United
States, 249 U.S. 47, 52 (1919). A century later, Michael

App. 2
Bonin brings us back to a theater to examine the limits
of protected speech.
After fellow moviegoers asked Bonin to stop talking on his phone during a film, Bonin scolded the audience, said he was a U.S. Marshal speaking with “the
government,” flashed a gun on his belt, and threatened
“anyone [who] had a problem with it, they could take
it out in the hall.” Panicked patrons called 911 and theater security in response. Everyone now knows Bonin
is not a U.S. Marshal, but when police arrived, Bonin
convinced them too that he was, and they allowed him
to reenter the theater. Such a second chance usually
preludes a character arc, but not in this story. As Bonin
walked to his seat, he raised his arms, again exposed
his gun, and bellowed, “See, I told you I’m a U.S. Marshal.” Moments later, police returned and removed him
from the theater.
Bonin’s ruse resulted in an indictment under 18
U.S.C. § 912. That statute makes it a crime to impersonate an officer or employee of the United States. A
jury found Bonin guilty. He now claims § 912 is an
unconstitutional restriction on free speech and challenges multiple evidentiary rulings and jury instructions. Because none of his claims offer any reason to
reverse the jury verdict, we affirm.

App. 3
I
The events described above occurred in 2014 at
the AMC River East theater in Chicago.1 Brian Reidy,
an off-duty Chicago police officer moonlighting as
theater security, responded first and asked Bonin to
step out into the hallway. Reidy observed that Bonin
openly wore a gold badge and gun on his belt. When
Reidy asked Bonin about his employment, Bonin again
falsely claimed to be a U.S. Marshal. Bonin also told
Reidy this was his “first night off ” after “working many
months.”
Minutes later, Chicago police officer Brenda Guillory arrived in response to a 911 call about a person in
a theater causing a disturbance with a gun. Two more
police officers responded as backup. As Guillory approached Bonin, she saw that he wore a “full duty belt”
typically worn by law enforcement with a gun, magazine, and badge on it. Guillory’s concerns were
“relaxed,” however, after Bonin told her that he was a
U.S. Marshal. Bonin also gave Guillory his driver’s
license and photo identification classifying him as a
“U.S. Fugitive Enforcement Agent” for the “U.S. Fugitive Enforcement Bureau.” The identification card also
contained a “star” logo with the words “U.S. Investigations.” Similarly, Bonin’s gold badge read, “U.S. Fugitive Enforcement Bureau,” with the Seal of the United

1

We recount the facts in the light reasonably most favorable
to the jury’s verdict. Murphy v. Smith, 844 F.3d 653, 655 (7th Cir.
2016).

App. 4
States and “The United States of America” imprinted
in the center.
Guillory ran a check on Bonin’s driver’s license,
which revealed no outstanding warrants and Bonin’s
valid concealed carry license. The exchange between
Guillory and Bonin lasted about ten to fifteen minutes.
Because police and theater security believed Bonin
was a U.S. Marshal, they allowed him back into the
movie and asked him to keep quiet for the rest of the
night.
Bonin immediately ignored the instruction. As he
reentered the theater, he raised his arms above his
head, displayed his gun, and blustered, “See, I told you
I’m a U.S. Marshal.” One moviegoer ran out of the theater and told Reidy that Bonin returned boasting, “I’m
a U.S. [expletive] Marshal, and there’s nothing you can
do about it.” Another patron, Patrick Alfich, sent a series of text messages to a friend in which he stated:
[J]ust got out of the movie w[h]ere drunk US
marshal with a gun threatened the audience
. . . [.] Everyone started yelling when he took
a phone call during the movie[.] . . . Then the
police let him back into the theater because
he’s a US marshal . . . [H]e had his gun on him
and his belt loop[.] . . . [S]aid he’s a US marshal and the government was calling him and
everyone can go [expletive] themselves and
that they had an issue that he was going to
take it out into the hallway[.]
Police, who had yet to leave the scene, escorted Bonin out. As Bonin exited, he walked with a limp and

App. 5
explained to Guillory that he injured his leg executing
a search warrant; another lie, as Bonin actually injured his leg in a motorcycle accident. At that point,
Guillory offered Bonin a ride home “as a courtesy” because she still believed he was a law enforcement officer. Bonin declined Guillory’s offer.
In response to Bonin’s ruckus, the theater gave
customers free movie passes and advised them to contact the U.S. Marshals Service if they wished to complain. Alfich did just that. Six weeks later, Bonin was
charged with false impersonation of a U.S. Marshal in
violation of 18 U.S.C. § 912.
A federal grand jury indicted Bonin for twice
falsely impersonating a U.S. Marshal: once in 2013 in
Markham, Illinois (Count One),2 and the 2014 incident
described above (Count Two). At the government’s request, the district court dismissed Count One of the indictment in January 2017.
One month later—while awaiting trial on the movie
theater charge—Bonin took his show on the road. Police
2

Count One alleged an off-duty Markham police officer observed Bonin drive through a red light with red and blue emergency lights activated. When the officer asked Bonin about the
emergency lights, Bonin responded he was a U.S. Marshal and
opened his trench coat to reveal a gun holstered at his waist. The
officer reported Bonin as a suspicious person to on-duty Markham
police, who issued traffic tickets to Bonin for running the red light
and improperly using emergency lights. After this incident, U.S.
Marshals met with Bonin and cautioned that pretending to be a
U.S. Marshal was illegal and could lead to Bonin unintentionally
placing himself in harm’s way. At the end of this meeting, Bonin
voluntarily surrendered two fake U.S. Marshal badges.

App. 6
observed a car driving in Beecher, Illinois, with flashing red and white emergency lights activated. As the
car approached, the police pulled over to allow it to
pass, believing it was an emergency vehicle. But when
the vehicle sped by police realized it was not a paramedic or patrol car as they expected, but a Ford Bronco
adorned with a large “AGENT” decal on the wind-shield
and law enforcement insignia on the sides. Bonin was
the driver. After that, a grand jury returned a twocount superseding indictment charging Bonin with
§ 912 violations for the AMC theater incident (Count
One) and this new act of false impersonation while
driving. At Bonin’s request, the district court severed
the two counts and ordered trial to proceed on the theater charge.
Bonin raised numerous pretrial challenges to the
government’s movie theater charge. Initially he moved
to dismiss the indictment, pointing to United States v.
Alvarez, 567 U.S. 709 (2012) (plurality opinion), which
held speech restrictions imposed by the Stolen Valor
Act of 2005 violated the First Amendment. Bonin claims
the logic of Alvarez renders § 912 unconstitutional by
extension.3 The district court denied Bonin’s motion
because his “arguments rely on an over-exaggerated
interpretation of Alvarez,” in which the Supreme
Court’s plurality, concurring, and dissenting opinions
discuss § 912 in dicta as an example of a constitutional statute. The court concluded that no part of the
3

The Stolen Valor Act of 2005, 18 U.S.C. 704(b), made it a
crime to falsely claim to be an award recipient of any military
decorations or medals.

App. 7
plurality’s opinion in Alvarez made § 912 “somehow
vulnerable” to Bonin’s arguments.
The district court also refused to give several of
Bonin’s proposed jury instructions. On the elements
of the offense, Bonin proposed instructions that explained a § 912 violation requires: (1) a false assertion
of authority; (2) an intent to defraud or a “knowing”
violation; and (3) evidence that the false pretense of
federal authority caused others to change their behavior in some way. Bonin also requested an instruction
requiring unanimity on which alleged false representation violated the law, as well as an instruction informing that the First Amendment protects freedom of
expression.
On the elements, the district court found that Bonin’s proposed instruction focused on the incorrect
§ 912 offense.4 It rejected Bonin’s proposal and instructed the jury that, to convict, it would need to find
that Bonin: (1) “falsely assumed or pretended to have
been an officer or employee acting under authority of
the United States Marshals Service”; and (2) “acted as
such.” The district court’s instructions further stated
that “[w]ith respect to acting ‘as such,’ the government
4

Section 912 prohibits: (1) false impersonation of a federal
official coupled with an overt act in conformity with the pretense
(the “acts-as-such clause”); and (2) false impersonation of a federal official coupled with demanding or obtaining a thing of value
(the “demands clause”). United States v. Lepowitch, 318 U.S. 702,
704-05 (1943); see also United States v. Rippee, 961 F.2d 677, 67879 (7th Cir. 1992). Bonin’s proposal involved the demands clause,
but he was charged under the acts-as-such clause.

App. 8
must prove that [Bonin] acted in a manner consistent
with his pretended authority as an officer or employee
of the United States.” With respect to Bonin’s proposed
unanimity and First Amendment instructions, the
court concluded they were inconsistent with the facts
and law at issue in the case.
Bonin also moved to suppress his statements to
Reidy and Guillory on two theories: that his removal
from the theater constituted an unlawful seizure, and
that the officer failed to read him Miranda warnings.
The district court denied Bonin’s suppression motion,
finding Bonin’s encounter with police was consensual,
and ruling police had reasonable suspicion to question
Bonin based on reports that a person with a gun was
causing a disturbance in the theater.
At trial, the jury heard from Reidy, Guillory, and
Alfich, each of whom testified that Bonin held himself
out to be a U.S. Marshal. Alfich also testified about Bonin’s threats and his berating of the movie audience.
The government also presented testimony from deputy
U.S. Marshal Michael Woods-Hawkins who explained
the basic duties of the position, including fugitive recovery and the accessories of a U.S. Marshal, such as
wearing a weapon and badge on the belt.
Bonin testified on his own behalf. On direct examination, he contradicted the testimony of Reidy, Guillory, and Alfich, denying that he raised his voice at the
movie audience or pretended to be a U.S. Marshal. He
also testified the badge he wore at the theater and the
identification card he presented to Guillory were given

App. 9
to him by the entity that “employed” him as a bounty
hunter. The gold badge bore the words “U.S. Fugitive
Enforcement Bureau” with the Seal of the United
States and the words “The United States of America”
in the center of the badge. The ID card contained the
title “U.S. Fugitive Enforcement Bureau,” and termed
Bonin as a “Fugitive Recovery Agent.”
On cross-examination, Bonin again testified that
he never cursed at the audience, never said he was a
U.S. Marshal, nor tried to trick anyone into thinking
he was a U.S. Marshal at any time in his life, including
the night at the theater. To rebut this testimony, the
government showed Bonin an assortment of badges
and other items seized from his home that contained
the words “Fugitive Recovery Agent,” “U.S.,” or “United
States.” The items also applied semblances of the Seal
of the United States. Bonin admitted he purchased
these items for himself. One of these items, a knit cap
with federal insignia, included the motto of the United
States Marshals Service. He also acknowledged he put
a gold magnet on his vehicle bearing an image of a star
badge with the words “Fugitive Recovery Agent” encircling the Seal of the United States.
The government also asked Bonin about pictures
he posted on his public Facebook page. These included
a picture of Bonin wearing a uniform with a badge, and
another picture of his car with the decals “U.S. Detective” and “CAUTION K-9.” Bonin admitted placing
those indicators on his vehicle, but he denied doing so
to make people think he was a federal law enforcement
officer.

App. 10
Because Bonin’s testimony called into question
the veracity of Alfich’s prior testimony, the government
re-called Alfich. Before trial, the district court had excluded Alfich’s text messages. But after Bonin denied
Alfich’s account of Bonin’s actions during the movie,
the court allowed the government to introduce Alfich’s
texts as prior consistent statements.
After a three-day trial, the jury returned a guilty
verdict. Bonin moved for judgment of acquittal and a
new trial, but the district court denied his motions. At
sentencing he was placed on three years’ probation.
II
On appeal Bonin submits a horde of legal challenges.5 Three predominate: a challenge to § 912 under
the First Amendment, objections to the jury instructions, and evidentiary disputes.
A
The Constitution mandates that “Congress shall
make no law . . . abridging the freedom of speech.” U.S.
CONST. amend. I. Bonin claims § 912 imperils that
freedom. We review this constitutional question de

5

We have explained “one of the most important parts of appellate advocacy is the selection of the proper claims to urge on
appeal.” Howard v. Gramley, 225 F.3d 784, 791 (7th Cir. 2000).
The kitchen-sink approach Bonin embraces can be criticized as
“consum[ing] space that should be devoted to developing the arguments with some promise.” Id.

App. 11
novo. Ctr. for Individual Freedom v. Madigan, 697 F.3d
464, 476 (7th Cir. 2012).
Section 912 provides:
Whoever falsely assumes or pretends to be an
officer or employee acting under the authority
of the United States or any department, agency
or officer thereof, and acts as such, or in such
pretended character demands or obtains any
money, paper, document, or thing of value,
shall be fined under this title or imprisoned
not more than three years, or both.
(emphasis added).
Bonin was charged under the “acts as such” clause
of § 912, which criminalizes “false impersonation of a
federal official coupled with an overt act in conformity
with the pretense.” United States v. Rippee, 961 F.2d
677, 678 (7th Cir. 1992). He mounts a facial challenge
to this clause, advancing three arguments. First, he
claims the Supreme Court facially invalidated it in
United States v. Alvarez, 567 U.S. 709 (2012). Next, he
invokes the overbreadth doctrine, arguing the actsas-such clause reaches a “substantial amount” of constitutionally protected conduct. Last, he argues it is
unconstitutionally vague. We begin our analysis with
Bonin’s broader facial attack before turning to the doctrines of overbreadth and vagueness.
Bonin confronts a “heavy burden” in raising a facial constitutional challenge to § 912. Nat’l Endowment for the Arts v. Finley, 524 U.S. 569, 580 (1998). The
Supreme Court has repeatedly stated that facial

App. 12
invalidation of legislation is disfavored. See Wash.
State Grange v. Wash. State Republican Party, 552 U.S.
442, 450 (2008); Nat’l Endowment for the Arts, 524 U.S.
at 580 (noting facial invalidation “has been employed
by the Court sparingly and only as a last resort”);
FW/PBS, Inc. v. Dallas, 493 U.S. 215, 223 (1990)
(“[F]acial challenges to legislation are generally disfavored.”). To prevail on a facial attack, Bonin must
establish “that no set of circumstances exists” in which
§ 912 would be valid or that it “lacks any plainly legitimate sweep.” United States v. Stevens, 559 U.S. 460,
472 (2010) (internal quotations and citations omitted).
Bonin offers no such arguments, nor could he under Alvarez. There, a plurality of the Court described
§ 912 as a “permissible” restriction on false speech because it “protect[s] the integrity of Government processes” and “is itself confined to ‘maintain[ing] the
general good repute and dignity of . . . government . . .
service itself.’ ” 567 U.S. at 720-21 (plurality opinion)
(quoting United States v. Lepowitch, 318 U.S. 702, 704
(1943)). Likewise, Justice Breyer’s concurring opinion
and Justice Alito’s dissent discussed § 912 as a constitutional restriction on speech. Id. at 735 (Breyer, J.,
concurring in the judgment); id. at 748 (Alito, J., dissenting). Despite the splintered decision, no Justice in
Alvarez questioned the constitutionality of § 912.6
6

Bonin argues Alvarez “confirms that . . . Section 912 is facially unconstitutional.” Each of the opinions in Alvarez said just
the opposite. The Court explained that § 912, along with other
statutes that “implicate fraud or speech integral to criminal conduct,” are “inapplicable” to the reasoning of its holding. Alvarez,

App. 13
The Alvarez plurality applied “most exacting scrutiny” in striking down the Stolen Valor Act. Id. at 724
(plurality opinion) (quoting Turner Broadcasting System, Inc. v. FCC, 512 U.S. 622, 642 (1994)). The concurring opinion applied intermediate scrutiny. Id. at 731
(Breyer, J., concurring in the judgment). We will assume, without deciding, that the more demanding
standard discussed in Alvarez applies here, as survival
under the former yields the same result under the latter.
“Most exacting scrutiny” requires the government
to establish that the “regulation is necessary to serve
a compelling state interest and that it is narrowly
drawn to achieve that end.” Boos v. Barry, 485 U.S. 312,
321-22 (1988). Here, the statute prohibits impersonation of federal officials and employees to “protect the
integrity of Government processes,” Alvarez, 567 U.S.
at 721 (plurality opinion), and “maintain the general
good repute and dignity of the government service itself,” Lepowitch, 318 U.S. at 704 (internal parentheses
omitted).
Bonin does not dispute that public safety and protection of the reputation of law enforcement are compelling interests. We are not alone in concluding they
are. The Fourth Circuit addressed the same issue and
567 U.S. at 721 (plurality opinion); see also id. at 734-35 (Breyer,
J., concurring in the judgment) (distinguishing § 912 from the
Stolen Valor Act because of its “focus on acts of impersonation”
(emphasis in original)); id. at 748-49 (Alito, J., dissenting) (describing § 912 violations as “false statements of fact [that] merit
no First Amendment protection in their own right”).

App. 14
held that “Alvarez . . . confirms . . . the very real problem of law enforcement impersonations and the misfortunes that can flow from them.” United States v.
Chappell, 691 F.3d 388, 397 (4th Cir. 2012) (rejecting
that Alvarez invalidated Virginia law prohibiting impersonation of police). Likewise, the Ninth Circuit has
held: “As Alvarez made clear, the government has the
constitutional power to prohibit the impersonation of
federal officials and employees” and characterized that
prohibition as serving “substantial government interests.” United States v. Tomsha-Miguel, 766 F.3d 1041,
1048-49 (9th Cir. 2014) (applying intermediate scrutiny and holding § 912 is a constitutionally permissible
restriction on free speech).7
Pretending to be a law enforcement officer could,
without more, help someone improperly gain entrance
to a home, school, or any other secured location. See
Chappell, 691 F.3d at 392 (observing same). That is
what happened here: Bonin’s lies gave him cover to
bring a gun and loaded magazine clip into a dark and
crowded theater.8 Because false impersonation of a
7

Bonin argues the Tomsha-Miguel holding was “called into
doubt” by a subsequent Ninth Circuit en banc opinion, which held
unconstitutional 18 U.S.C. § 704(a), a section of the Stolen Valor
Act that criminalizes the unauthorized wearing of military medals. See United States v. Swisher, 811 F.3d 299, 318 (9th Cir.
2016). We disagree, as the Ninth Circuit said the opposite in
Swisher when it “reject[ed] . . . reasoning that § 704(a) is like the
statutes described in Alvarez that prohibit impersonation of government officials, like 18 U.S.C. § 912.” Id. at 316.
8
Although witnesses at the theater observed only one gun,
Bonin reported he actually carried six firearms because that is
how he “usually arm[s]” himself.

App. 15
federal officer could have serious security ramifications and erode the public’s trust in federal institutions, the government’s interest in protecting the
integrity of government processes is compelling.
Given the government’s compelling interest, the
only question is whether § 912 is “narrowly drawn to
achieve” those interests. Boos, 485 U.S. at 321-22. We
look again to Alvarez. False statements are not categorically excluded from First Amendment protections.
In recognizing this principle, Alvarez distinguished between unprotected lies (like fraud, speech integral to
criminal conduct, defamation, and perjury) and protected lies (like those covered by the Stolen Valor Act,
which “targets falsity and nothing more”).9 567 U.S. at
717, 719; see also id. at 734-35 (Breyer, J., concurring
in the judgment) (distinguishing § 912 and its “narrower” scope from the Stolen Valor Act). What sets
§ 912 apart from the Stolen Valor Act is the requirement of an overt act in conformity with the lie.
The Stolen Valor Act’s flaw was that “its plain terms
applie[d] to a false statement made at any time, in any
place, to any person. . . . And it does so entirely without
regard to whether the lie was made for the purpose of

9

The Stolen Valor Act provided: “Whoever falsely represents
himself or herself, verbally or in writing, to have been awarded
any decoration or medal authorized by Congress for the Armed
Forces of the United States . . . shall be fined under this title, imprisoned not more than six months, or both.” 18 U.S.C. § 704(b)
(2005).

App. 16
material gain.” Id. at 722-23 (plurality opinion).10 Section 912’s acts-as-such clause is more narrowly tailored because it requires intentional “act[ion] in the
pretended character . . . sought to cause the deceived
person to follow some course he would not have pursued but for the deceitful conduct.” Lepowitch, 318 U.S.
at 704; see also Tomsha-Miguel, 766 F.3d at 1049 (finding the statutory elements of § 912 incorporate an intent to deceive). Applying the reasoning of Lepowitch
here, the evidence showed that Bonin both sought to
deceive the movie audience to tolerate his rude behavior and sought to deceive the police officers to avoid
taking action against him for his threatening conduct
in the theater.
Because the acts-as-such clause prohibits more
than mere lies, it falls outside the scope of Alvarez’s
holding. Alvarez, 567 U.S. at 721 (“Statutes that . . .
prohibit impersonating a Government officer, also protect the integrity of Government processes, quite apart
from merely restricting false speech.”). Instead, the
clause is “narrowed . . . to a subset of lies where specific
harm is more likely to occur,” which “help[s] to make
certain that the statute does not allow its threat of liability or criminal punishment to roam at large.” Id. at
10

The plurality opinion in Alvarez called the government’s
interests “compelling” but held that the Stolen Valor Act’s restriction
was not “the least restrictive means among available, effective alternatives.” 567 U.S. at 725-29. Notably, Congress amended the
Stolen Valor Act after the Alvarez decision, now making it a crime
to “fraudulently hold[] oneself out to be a recipient” of specified
military decorations or medals “with the intent to obtain money,
property, or other tangible benefit.” See 18 U.S.C. § 704.

App. 17
736 (Breyer, J., concurring in the judgment). “Where
false claims are made to effect a fraud . . . it is well established that the Government may restrict speech
without affronting the First Amendment.” Alvarez, 567
U.S. at 723 (plurality opinion). Although the Court’s
observations on § 912 arose in dicta, they inform us
where the Court stands. McBride v. CSX Transp., Inc.,
598 F.3d 388, 405 (7th Cir. 2010) (“[W]e must treat with
great respect the prior pronouncements of the Supreme Court, even if those pronouncements are technically dicta.”). For these reasons, we follow Alvarez’s
approach and hold that § 912 is narrowly drawn to
serve the government’s compelling interests.
We turn now to whether the acts-as-such clause
prohibits a substantial amount of protected speech, violating the overbreadth doctrine.
Because an overly broad law may deter constitutionally protected speech, the overbreadth doctrine
allows persons, like Bonin, “to attack overly broad statutes even though the conduct of the person making the
attack is clearly unprotected and could be proscribed
by a law drawn with the requisite specificity.” New York
v. Ferber, 458 U.S. 747, 769 (1982). Even still, the
“strong medicine” of the doctrine is employed “with
hesitation, and then ‘only as a last resort.’ ” Id. (citation
omitted). “[T]he mere fact that one can conceive of
some impermissible applications of a statute is not sufficient to render it susceptible to an overbreadth challenge. Members of City Council of City of Los Angeles
v. Taxpayers for Vincent, 466 U.S. 789, 800 (1984) (denying overbreadth challenge after plaintiffs “simply

App. 18
failed to demonstrate a realistic danger that the ordinance will significantly compromise recognized First
Amendment protections of individuals not before the
Court”). Rather, “there must be a realistic danger that
the statute itself will significantly compromise recognized First Amendment protections of parties not
before the Court for it to be facially challenged on overbreadth grounds.” Id. at 801.
Bonin fails to raise any “realistic danger” that the
acts-as-such clause will compromise First Amendment
rights. Bonin offers weak examples: “a fired Treasury
employee” who “conceal[s] his unemployment from his
spouse and claim[s] he is ‘going to work’ each morning”;
and “[a]n Internet dater” who “fak[es] an FBI agent
work emergency to end a bad date early.” According to
Bonin, “the ‘acts’ offense [even] criminalizes theater
and Halloween.” These far-fetched hypotheticals do not
presage any risk that the acts-as-such clause will
cause third parties to avoid constitutionally protected
speech. Moreover, “[t]he overbreadth claimant bears
the burden of demonstrating, from the text of the
law and from actual fact, that substantial overbreadth
exists.” Virginia v. Hicks, 539 U.S. 113, 122 (2003) (internal quotations and citations omitted); see also Ctr.
for Individual Freedom, 697 F.3d at 479-80 (“The central question . . . is whether the provisions at issue
potentially reach a ‘substantial’ amount of protected
speech.”). Bonin’s hypothetical cadre of costume wearers and regretful suitors fail to satisfy these conditions.
The acts-as-such clause raises no overbreadth problems.

App. 19
Bonin’s last attack on § 912’s constitutionality is
for vagueness. It is a “basic principle of due process”
that a statute is void for vagueness “if its prohibitions
are not clearly defined.” Grayned v. City of Rockford,
408 U.S. 104, 108 (1972).
Critically, Bonin makes no claim that the actsas-such clause is vague with respect to his own conduct. The flagrancy and frequency of Bonin’s lies at the
theater fit within the prohibition of § 912 to “falsely
assume[ ] or pretend[ ] to be an officer or employee acting under the authority of the United States.” Bonin’s
vagueness claim does not survive “the rule that ‘a
plaintiff who engages in some conduct that is clearly
proscribed cannot complain of the vagueness of the law
as applied to the conduct of others.’ ” Holder v. Humanitarian Law Project, 561 U.S. 1, 20 (2010) (internal
brackets omitted) (quoting Vill. of Hoffman Estates v.
Flipside, Hoffman Estates, Inc., 455 U.S. 489, 495
(1982)). “That rule makes no exception for conduct in
the form of speech.” Id. The facts here do not present a
close call on this issue. Because Bonin’s conduct is
“clearly proscribed,” we see no reason to evaluate the
merits of his vagueness claim.
B
Bonin next argues the district court “misinstructed the jury on essential elements” of an actsas-such offense. He also contends the district court
erred in refusing to give his proffered First Amendment and unanimity instructions.

App. 20
We review Bonin’s challenge to the elements instruction in two steps. First, we review de novo “whether
[the] jury instructions accurately summarize the law,
but give the district court substantial discretion to formulate the instructions provided that the instructions
represent a complete and correct statement of the law.”
United States v. Daniel, 749 F.3d 608, 613 (7th Cir.
2014) (citation omitted). If the instructions are legally
accurate, then we review the district court’s phrasing
of the instructions for abuse of discretion. Id.
Here, the instruction read:
In order for you to find the defendant guilty of
these charges, the government must prove
each of the following two elements beyond a
reasonable doubt:
1. That the defendant falsely assumed
or pretended to have been an officer or
employee acting under authority of the
United States Marshals Service; and
2.

That the defendant acted as such.

With respect to acting “as such,” the government must prove that the defendant acted in
a manner consistent with his pretended authority as an officer or employee of the United
States Marshals Service.
The components of the instruction are either direct quotations from § 912’s text (the numbered portion of the instruction) or an accurate restatement of
case precedent from the Supreme Court and this court
(the final sentence). Compare Lepowitch, 318 U.S. at

App. 21
704 (“Government officials are impersonated by any
persons who ‘assume to act in the pretended character.’ ”) with Rippee, 961 F.2d at 678 (“Section 912 criminalizes . . . false impersonation of a federal official
coupled with an overt act in conformity with the pretense. . . .”) and United States v. Hamilton, 276 F.2d 96,
98 (7th Cir. 1960) (“The words ‘acts as such’ as used in
[§] 912 . . . have been construed to mean acting in the
pretended character, [without] necessarily doing an act
which defendant would have been authorized to do under authority of the assumed [office].”). Providing jurors with these accurate summaries of applicable law
is not an abuse of discretion.
Bonin argues the district court should have instructed the jury on three additional elements of an
acts-as-such offense: a mens rea component, an assertion of authority component, and causation. We address his proposed elements in turn.
The government concedes the district court erred
in omitting a mens rea instruction. See, e.g., Elonis v.
United States, 135 S. Ct. 2001, 2009 (2015) (“The fact
that the statute does not specify any required mental
state, however, does not mean that none exists.”). Even
so, “an instruction that omits an element of the offense
does not necessarily render a criminal trial fundamentally unfair or an unreliable vehicle for determining guilt or innocence.” Neder v. United States, 527 U.S.
1, 9 (1999). The omission of an element is subject to
harmless-error analysis. Id. at 10.

App. 22
In Neder, the Supreme Court set forth the test to
determine whether an error is harmless: “Is it clear beyond a reasonable doubt that a rational jury would
have found the defendant guilty absent the error?”
Id. at 18. Here, Bonin not only pretended to be a U.S.
Marshal to break a rule, he did so with an attitude
of entitlement, undermining the integrity and professionalism of the U.S. Marshals Service. Then, he kept
the con going, lying to police to avoid being arrested or
kicked out of the theater. And after that scam worked,
he gloated and flashed a gun as he reentered the theater. Section 912 prohibits such conduct. More importantly, a fairly selected and impartial jury weighed
all the evidence, including Bonin’s own testimony, and
rejected his defense.11 See id. at 9. On the record in this
case, no jury could reasonably find that Bonin’s continual falsehoods were not knowing and intentional. We
thus hold that the district court’s failure to submit a
mens rea element was harmless error.
Bonin also claims the district court erred when
it failed to instruct that acts-as-such impersonation
requires an assertion of authority. He contends this instruction is required to “harmonize” our holdings
in Hamilton and Rippee. We disagree on both fronts.
First, Bonin’s proposed instruction ignores the plain
11

At trial, Bonin denied making false representations. He
did not argue his conduct was based on his mistake, an accident,
or his ignorance of the law. On appeal, Bonin claims to be a “fugitive recovery agent” and “proud bounty hunter,” although he has
never recovered a fugitive. According to Bonin, the “confusing relationship between bounty hunting and the Marshal Service” created the misperception that he said he was a U.S. Marshal.

App. 23
language of § 912, which contains no “assertion of authority” requirement. Second, Bonin’s proposal would
nullify the acts-as-such clause as a separate and distinct violation of § 912. On this point, he labors under
the misimpression that a tension exists between Hamilton and Rippee. In Hamilton, the defendant committed
acts-as-such impersonation when wearing a firearm in
someone’s home while falsely pretending to be an F.B.I.
agent. 276 F.2d at 97-98 (affirming judgment of conviction). Rippee involved a defendant charged under the
demands clause who pretended to be a U.S. Marshal
and asserted false authority (that he was dispatched to
break up a fight) to avoid a traffic ticket for an illegal
U-turn. 961 F.2d at 678 (affirming judgment of conviction). These opinions apply different requirements because they concern different § 912 offenses, and there
is no conflict in their holdings.
Bonin’s request for a causation instruction—telling jurors the “acts” must cause someone to change
their behavior—also fails because the text of § 912
does not mention causation. Nor has our court interpreted the statute to require causation to prove an
acts-as-such offense. We decline Bonin’s invitation to
decree requirements not included in the statute itself.
Bonin also asked for unanimity and First Amendment instructions. “We review de novo a district court’s
refusal to provide a requested jury instruction when the
underlying assignment of error implicates a question
of law, but general attacks on the jury instructions are
reviewed for an abuse of discretion. United States v.

App. 24
Bloom, 846 F.3d 243, 255 (7th Cir. 2017) (citations and
internal quotation marks omitted).12
Bonin speculates the jury may have convicted him
without agreeing on which of his false representations
violated the law. He claims a unanimity instruction
would have fixed that problem. “[W]hile a jury’s unanimity is required in regard to each principal element
of a criminal offense, ‘a federal jury need not always
decide unanimously which of several possible sets of
underlying brute facts make up a particular element,
say, which of several possible means the defendant
used to commit an element of the crime.’ ” Daniel, 749
F.3d at 613 (quoting Richardson v. United States, 526
U.S. 813, 817 (1999) (emphasis added)). Here, Bonin’s
repeated false statements that he was a U.S. Marshal,
in addition to his brandishing a badge and a gun, were
the “underlying brute facts” of the verdict against him.
In other words, “they were merely the means he used
to commit an element of the crime.” Id. at 614. Because
“the instructions used in this case accurately conveyed
the law,” id., the district court did not abuse its

12

Bonin additionally contends “[t]he district court erroneously refused to instruct the jury” as follows: (1) “[a] person does
not falsely represent himself if he tells the truth as he understands it”; and (2) “if you find that the government did not prove
beyond a reasonable doubt that Mr. Bonin did not act in good
faith, then you must find him not guilty.” But he neither explains
these defense theories nor develops any argument applying them
to this case. Because the claims are “perfunctory and undeveloped,” they are waived. Northbound Grp., Inc. v. Norvax, Inc., 795
F.3d 647, 652 n.2 (7th Cir. 2015).

App. 25
discretion when it declined to give the unanimity instructions Bonin requested.
Bonin also claims the absence of a First Amendment instruction exposed him to a conviction for protected expression. He insists the district court erred by
refusing an instruction saying “the First Amendment
. . . prevents the government from criminalizing mere
hyperbole, sleaziness, bad behavior, bragging, or puffery, or the expression of an opinion. It is not illegal to
simply pretend to be a United States Marshal.” But for
the reasons explained above, Bonin’s proposed instruction misstates the law. And allowing a jury to muse on
the First Amendment’s influence on a constitutionally
valid statute risks confusion on the elements of the offense and on the government’s burden of proof. The
government needed to prove the elements of § 912’s
acts-as-such offense beyond a reasonable doubt, which
it did. The district court properly refused to give a First
Amendment instruction.
C
Finally, Bonin presents a series of evidentiary issues he believes warrant reversal. We start with his
claim that the admission of pseudo law enforcement
items seized from his home, as well as social media
images of him in law enforcement regalia, unfairly
prejudiced his defense. After that, we consider the
admission of Alfich’s text messages. Then, we examine
whether the district court erred by denying Bonin’s
motion to suppress his statements to Officer Guillory.

App. 26
Last, we consider whether Bonin was entitled to present certain evidence that he lawfully carried his gun
in the theater.
During cross-examination of Bonin, the government introduced three badges, one automobile magnet,
and a knit cap seized from Bonin’s home, in addition to
Facebook photos of Bonin posing as a law enforcement
officer. Bonin alleges the admission of these items violated FED. R. EVID. 404(b) and 403, as they were used
to demonstrate his propensity to impersonate law enforcement and resulted in unfair prejudice. We review
the district court’s decision to admit this evidence for
abuse of discretion. United States v. Anzaldi, 800 F.3d
872, 882 (7th Cir. 2015).
Rule 404(b) provides that “[e]vidence of a crime,
wrong, or other act is not admissible to prove a person’s
character in order to show that on a particular occasion
the person acted in accordance with the character.”
FED. R. EVID. 404(b) (emphasis added). Yet the rule permits other-act evidence for non-propensity purposes,
including proof of intent. Id. When, as in this case, “intent is ‘at issue’ because the defendant makes it an issue,” other-act evidence may be admissible to prove
intent, “but it must be relevant without relying on a
propensity inference, and its probative value must not
be substantially outweighed by the risk of unfair prejudice.” United States v. Gomez, 763 F.3d 845, 859 (7th
Cir. 2014).
Before trial, the district court excluded the items
seized from Bonin’s home and his social media

App. 27
postings. Yet the court allowed this other-acts evidence
on cross-examination after Bonin denied ever intending to give the impression that he was a U.S. Marshal,
not just in the theater, but at any time in his life. Bonin
also testified that any resemblance the identification
card he gave to Guillory and the badge he wore at the
theater had to official law enforcement items was coincidental and created by his “employer.” At that point,
Bonin opened the door to the government’s impeachment with evidence of pseudo federal law enforcement
items from his home. See Gomez, 763 F.3d at 858 (“[I]n
order for the government to introduce prior bad acts to
show intent, the defendant must put his intent at issue
first.”).
The government asked Bonin whether he purchased these items himself, which he affirmed. These
questions were also permissible impeachment after
Bonin disclaimed an intent to trick anyone at any time
into believing he was a U.S. Marshal. For example, Bonin acknowledged placing the words “U.S. Detective”
and a gold star magnet similar to a U.S. Marshal insignia on his vehicle, but he denied any intent to make
people think he was a federal law enforcement officer.
When Bonin denied such an intent, this evidence became relevant for the non-propensity purpose of proving his contrary intent. Accordingly, the challenged
evidence clears Rule 404(b)’s bar on propensity evidence.
The next question, then, is whether the probative
value of this evidence “is substantially outweighed by
a danger of . . . unfair prejudice.” FED. R. EVID. 403. As

App. 28
a general matter, “intent becomes more relevant, and
evidence tending to prove intent becomes more probative, when the defense actually works to deny intent,
joining the issue by contesting it.” United States v. Miller, 673 F.3d 688, 697 (7th Cir. 2012).
Here, intent became a contested issue after Bonin
denied intending to deceive others at any point in time
into believing he was federal law enforcement. The
challenged evidence—which bore stark resemblances
to federal law enforcement attire, phrases, and insignia, and which Bonin purchased himself—had high
probative value because it went directly to Bonin’s intent to deceive the public.
We “accord great deference” to the district court’s
evidentiary determinations “because of the judge’s
first-hand exposure to the evidence[,] . . . familiarity
with the case[,] and ability to gauge the impact of the
evidence on the jury in the context of the trial.” United
States v. Williams, 216 F.3d 611, 615 (7th Cir. 2000).13
In addition, the district court gave a limiting instruction to avoid any possibility that the jury would
13

Two days before trial, the district court’s executive committee reassigned this case from Judge Robert Gettleman to
Judge Donald E. Walter of the Western District of Louisiana, who
had been designated to perform judicial duties in the Northern
District of Illinois. Bonin contends Judge Walter’s substitution on
the eve of trial rendered him incapable of familiarity with this
case, and therefore, “no deference is due” to his evidentiary rulings and we should apply a heightened standard of review to all
his decisions. Bonin cites no authority to support this argument.
Regardless, the argument fails because Judge Walter’s evidentiary rulings were proper.

App. 29
improperly view this as “propensity” evidence. The
court directed the jury to consider this evidence for impeachment alone, as well as that the jury could not infer that because Bonin committed any act in the past
he was more likely to have committed the charged offense. Affording “great deference” here, the district
court was within its discretion to admit the challenged
evidence.
Bonin also argues the district court erred by
admitting the text messages sent from the theater by
witness Patrick Alfich. Once again, we review for abuse
of discretion. Anzaldi, 800 F.3d at 882. In the government’s rebuttal case, Alfich testified regarding text
messages he sent immediately after witnessing Bonin’s outbursts. The statements contained in those text
messages were admitted as prior consistent statements under FED. R. EVID. 801(d)(1)(B).
A statement is not hearsay, and is admissible as a
prior consistent statement under Rule 801(d)(1)(B), if
four conditions are met: (1) the declarant testifies at
trial and is subject to cross-examination; (2) the prior
statement is consistent with the declarant’s trial testimony; (3) the statement is offered to rebut an express
or implied charge of recent fabrication or improper motive; and (4) the statement was made before the declarant had a motive to fabricate. United States v. Davis,
896 F.3d 784, 788-89 (7th Cir. 2018). Bonin argues the
third requirement was not met because he never directly accused Alfich of fabrication. But his argument
ignores that Rule 801(d)(1)(B) allows a prior statement
to rebut an “implied charge that the declarant recently

App. 30
fabricated.” FED. R. EVID. 801(d)(1)(B)(i) (emphasis
added).
“[T]he precise contours” of a charge of fabrication
“may be unclear.” Miller v. Greenleaf Orthopedic Assocs.,
S.C., 827 F.3d 569, 574 (7th Cir. 2016). Yet “determining
whether a witness’s past statement has any potential
to rebut the allegation will necessarily involve an exercise of the trial judge’s discretion.” Id. Here, Bonin’s
testimony on direct and cross-examination directly
contradicted Alfich and implied that Alfich’s testimony
about Bonin’s false statements, threats, and behavior
was fictional. See United States v. Ruiz, 249 F.3d 643,
647-48 (7th Cir. 2001) (holding an accusation of fabrication existed where defendant “raised the implication”
that the witness’s testimony “was fictional”). Given these
reasons, the district court’s ruling was supported and
reflects a proper exercise of discretion.
As to the admission of the pseudo law enforcement
items, the social media images, and the text messages,
reversal is required if an evidentiary error “had a substantial and injurious effect or influence on the jury’s
verdict.” United States v. Redditt, 381 F.3d 597, 601
(7th Cir. 2004) (quote omitted). An evidentiary error
meets this standard “only when a significant chance
exists that they affected the outcome of the trial.”
Whitehead v. Bond, 680 F.3d 919, 930 (7th Cir. 2012).
Given the trial evidence, these standards are not met
here.
Bonin also appeals his initial police encounter.
He argues the officers lacked reasonable suspicion to

App. 31
believe he was involved in criminal activity at the theater, and therefore “everything that happened during
the stop should have been suppressed.” We review a
district court’s denial of a motion to suppress under a
“dual standard of review”; legal conclusions are reviewed de novo, but findings of fact for clear error.
United States v. Edgeworth, 889 F.3d 350, 353 (7th Cir.
2018).
“A limited intrusion into an individual’s privacy is
permitted under the Fourth Amendment where the police have reasonable suspicion to believe criminal activity is afoot.” United States v. Richmond, 924 F.3d
404, 411 (7th Cir. 2019) (citations omitted). Reasonable
suspicion exists when an officer can point to specific
and articulable facts which, taken together with rational inferences from those facts, reasonably warrant
that intrusion. Id. We “presume the reliability of an
emergency 911 call reporting an emergency situation
for purposes of establishing reasonable suspicion.”
United States v. Drake, 456 F.3d 771, 775 (7th Cir.
2006).
Here, Guillory arrived at the theater in response
to a 911 call reporting a person with a gun causing a
disturbance at the theater. Reidy identified Bonin as
the person causing the disturbance, and Guillory observed the gun on Bonin’s belt. Objectively reasonable
grounds existed for police to suspect that Bonin was
engaged in unlawful activity. As for the scope of Guillory’s questioning, “[i]t is well settled that police may
approach an individual in a public place and seek the
individual’s cooperation in answering a few questions.

App. 32
Such an encounter is not a ‘seizure’ within the meaning of the Fourth Amendment.” United States v. Adamson, 441 F.3d 513, 519-20 (7th Cir. 2006); see also
United States v. Drayton, 536 U.S. 194, 201 (2002)
(“Even when law enforcement officers have no basis
for suspecting a particular individual, they may pose
questions, [and] ask for identification. . . .”). After learning Bonin was the suspect reported, Guillory asked
him for his version of events, and took his driver’s license only long enough to verify he had a valid concealed carry license. Minutes later, Bonin reentered
the theater. Because the evidence supported a finding of reasonable suspicion, and that Bonin was not
“seized” in violation of the Fourth Amendment, the district court did not err in denying Bonin’s motion to suppress.
Finally, Bonin argues the district court violated
the Sixth Amendment by excluding evidence of: Illinois’s concealed carry law; the absence of signs prohibiting guns at the theater; and testimony from Bonin’s
bounty hunting instructor, John Howard, about firearms training he gave Bonin.
We review the district court’s decisions to exclude
Bonin’s proffered evidence for an abuse of discretion.
United States v. Alayeto, 628 F.3d 917, 920-21 (7th Cir.
2010) (citation omitted). But we review de novo the
question of whether the evidentiary ruling infringed
upon a defendant’s constitutional rights. Id. (citation
omitted).

App. 33
The district court properly excluded Bonin’s proffered evidence for three reasons. First, the district
court correctly observed the evidence was irrelevant
under Rule 401 because Bonin was not charged with
violating Illinois’s concealed carry laws or the movie
theater’s policy prohibiting firearms. Evidence about
Bonin openly wearing a gun and a badge on his belt
was relevant because that conduct was part and parcel
of his false impersonation of a U.S. Marshal. Conversely, whether Illinois law allowed Bonin to have a
gun in the theater, the theater’s signage on this issue,
and what John Howard told Bonin about Illinois law,
were all irrelevant. None of that evidence had a tendency to make a fact of consequence to his guilt or innocence more or less probable. See FED. R. EVID. 401.
Second, Bonin’s proposed evidence failed under
Rule 403 balancing. Any probative value of the evidence was substantially outweighed by the danger
that it would confuse the issues and mislead the jury
into thinking that Bonin’s guilt on a § 912 charge was
somehow intertwined with his compliance with Illinois
law and training he received from some third party.
Third, Bonin presented a defense on all these issues.
For example, Howard did testify on the training he
gave his “agents,” like Bonin, as to how and when they
could carry guns. Likewise, Bonin testified about his
concealed carry license, his purported work as a bounty
hunter, his training for that position, and that he was
unaware the theater prohibited guns. So the district
court neither prevented Bonin from presenting this
defense, nor abused its discretion when it excluded

App. 34
irrelevant and misleading evidence that Bonin requests on appeal.
III
Fictional tales are a part of the cinema experience.
But when Bonin upstaged the on-screen performances
as a make-believe marshal, he broke the law. The First
Amendment cannot save him, and his jury instruction
and evidentiary claims do not persuade us, so we AFFIRM.

App. 35
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
UNITED STATES
OF AMERICA
v.
MICHAEL BONIN

)
)
)
)
)

No. 15 CR 22
Judge
Robert W. Gettleman

ORDER
(Filed Dec. 1, 2016)
This matter came before the court for initial pretrial conference. For the reasons stated herein and on
the record, it is hereby ordered:
1.

Defendant’s motion in limine no. 1 (doc. 91) is
denied and subject to renewal at trial.

2.

Defendant’s motion in limine no. 2 (doc. 92) is
denied.

3.

Defendant’s motion in limine no. 3 (doc. 93) is
granted by agreement in part and denied in
part. As to excluding any references to mass
shootings or gun violence, the motion is granted
as agreed. As to excluding any references to
guns as “weapons,” defendant’s motion is denied. As to excluding the actual gun, the government agrees not to introduce the gun in its
case in chief. The court reserves ruling on the
gun’s admissibility during cross-examination
of defendant until trial.

App. 36
4.

The court reserves ruling on defendant’s motion in limine no. 4 (doc. 97) until trial.

5.

Defendant’s motion in limine no. 5 (doc. 94) is
denied.

6.

Defendant’s motion in limine no. 6 (doc. 95) is
denied. Voir dire will be conducted as discussed on the record.

7.

Defendant’s motion in limine no. 7 (doc. 108)
is granted.

8.

The government’s motion in limine no. 1 (doc.
89) is granted in part and denied in part. The
court grants the government’s motion to the
extent that the court has ruled on the elements of the offense. The court denies the
motion in that it declines to adopt the government’s proposed jury instruction. The court
has drafted the elements instructions and distributed them to the parties.

9.

As stated on the record, the court ruled on the
jury instructions. The court will prepare a revised set of jury instructions consistent with
the rulings and distribute them to the parties.

10. The parties are directed to submit a revised
witness list including all likely witnesses and
persons whose names are likely to be disclosed at trial, in alphabetical order, on or before January 9, 2016.
11. Should the trial commence as planned, the
parties are directed to appear on January 23,
2017, at 9:30 a.m.

App. 37
This matter is set for a continued pretrial conference on January 12, 2017, at 11:00 a.m.
ENTER: December 1, 2016
/s/ Robert W. Gettleman
Robert W. Gettleman
United States District Judge

App. 38
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
UNITED STATES
OF AMERICA,
Plaintiff,
vs.
MICHAEL BONIN,
Defendant.

)
)
)
)
)
)
)
)

No. 15 CR 22
Chicago, Illinois
December 1, 2016
11:09 a.m.

TRANSCRIPT OF PROCEEDINGS PRETRIAL CONFERENCE
BEFORE THE
HONORABLE ROBERT W. GETTLEMAN
APPEARANCES:
For the Plaintiff: HON. ZACHARY T. FARDON
United States Attorney
BY: MR. ERIC S. PRUITT
MR. MATTHEW L. KUTCHER
Assistant United States Attorneys
219 South Dearborn Street, Suite 500
Chicago, Illinois 60604
(312) 353-5300
eric.pruitt@usdoj.gov
matthew.kutcher@usdoj.gov
For the Defendant: UNIVERSITY OF CHICAGO
LAW SCHOOL
BY: MS. JUDITH P. MILLER
Mandel Legal Aid Clinic
6020 South University Avenue
Chicago, Illinois 60637

App. 39
(773) 702-9611
jpmiller@uchicago.edu
LOEVY & LOEVY
ATTORNEYS AT LAW
BY: MR. DAVID BENJAMIN OWENS
311 North Aberdeen Street,
Third Floor
Chicago, Illinois 60607
(312) 243-5900
david@loevy.com
*

*

*

[15] On the elements instruction, I’ve done a lot of
thinking about this since this is the first time I’ve had
this particular offense. And we have drafted – we have
tried to simplify this, and I think the defendant said
simplification is a good idea, but I think that our instruction – the instructions I’m about to hand you are
– that Constance is about to hand you are the ones I
want to give.
*

*

*

THE COURT: So this is a simplified elements instruction. Remember that he’s only being
charged with the first part of the statute, not the second part, and a lot of your instructions really assume
he’s being charged with the second part of the statute.
So this is basically directing the jury to find the
elements that are involved in this particular case, and
I think that these two instructions, the first is the elements instructions, and the other one is the acted “as
such” instruction. So it’s a little different than both of

App. 40
you suggested, but I’m going to give these two instructions in lieu of your suggestions.
*

*

[16] MS. MILLER:
THE COURT:

*
Your Honor?

Yes.

MS. MILLER: I don’t know if this would be
a good [17] time to address it or not, but if possible, I
would like to respond to your point about the demands
versus the acts offense.
THE COURT:

I’m sorry?

MS. MILLER: Sorry. I would like to respond
to the demands versus acts issue. If – I don’t know if
this is a good time or we should wait until the very end,
whatever the Court –
THE COURT: Well, I’ve given this an awful
lot of thought, and I’m pretty well convinced that the
rulings I’ve given you are going to stand.
Now, I’m looking at the defendant’s proposed instructions.
*

*

*

[19] For No. 8 – but you had a motion to file –
agreed motion to file corrected instructions that you
just submitted. That will be granted, but I think I’ve
already sort of superseded that. So your proposed No.
8 and 9, I’ve already taken care of it in the Court’s instructions that I’ve handed out to you.

App. 41
No. 10 I don’t think is appropriate, so that’s not
going to be given. The same for No. 11.
I’m not going to give – the intend to defraud, good
faith, unanimity – this is 12, 13, and 14 – those are all
– actually, 15 and 16 – those are all related to the second part of the statute which isn’t being charged here.
And the First Amendment I don’t think has anything to do with this case. It’s not a First Amendment
case, so I’m denying 17 as well.
MR. OWENS:
was that?

I’m sorry, Your Honor, what

THE COURT: 17. I’m sorry if I’m dropping
my voice, which I have a habit of doing. I’m denying the
proposed 17.
*

*

*

App. 42
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
UNITED STATES
OF AMERICA,
Plaintiff,
vs.
MICHAEL BONIN,
Defendant.

)
)
)
)
)
)
)
)

No. 15 CR 22
Chicago, Illinois
April 3, 2017
2:13 p.m.

VOLUME NO. 1 PM
TRANSCRIPT OF PROCEEDINGS – Trial
BEFORE THE HONORABLE DONALD E. WALTER
and a Jury
APPEARANCES:
For the Plaintiff:

HON. JOEL R. LEVIN
Acting United States Attorney
BY: MR. ERIC S. PRUITT
MR. MATTHEW L.
KUTCHER
Assistant United States Attorneys
219 South Dearborn Street,
Suite 500
Chicago, Illinois 60604
(312) 353-5300
eric.pruitt@usdoj.gov
matthew.kutcher@usdoj.gov

App. 43
For the Defendant:

UNIVERSITY OF CHICAGO
LAW SCHOOL
BY: MS. JUDITH P. MILLER
Federal Criminal Justice Clinic
Mandel Legal Aid Clinic
6020 South University Avenue
Chicago, Illinois 60637
(773) 702-9611
jpmiller@uchicago.edu

Official Court
Reporter:

NANCY L. BISTANY, CSR,
RPR, FCRR
219 South Dearborn Street,
Room 1706
Chicago, Illinois 60604
(312) 435-7626
nancy_bistany@ilnd.uscourts.gov

For the Defendant:

LOEVY & LOEVY ATTORNEYS
AT LAW
BY: MR. DAVID BENJAMIN
OWENS
311 North Aberdeen Street,
Third Floor
Chicago, Illinois 60607
(312) 243-5900
david@loevy.com

Also Present:

MR. ANDREW MacKIE-MASON
*

*

*

Reidy – cross by Miller
*

*

*

[197] Q. Officer Reidy, you testified that you’re a
police officer?

App. 44
A.

Yes.

Q.

And you were off duty that night?

A.

Yes.

Q. And you yourself were carrying a firearm the
night of December 4th, 2014?
A.

Correct.

Q.

It was concealed?

A.

Yes.

Q. And you did not have a special permit to carry
a concealed firearm, did you?
A.

Correct.

Q. You don’t need a special permit to carry a concealed firearm?
A.
Q.
ficer?
A.

Correct.
That’s because you’re a law enforcement ofBecause I’m a Chicago police officer.
*

*

*

[208] Now – and I also just want to check, you – he
didn’t hand you a U.S. Marshal ID card?
A.

No, no.

Q.

In fact, you didn’t see any document that –

A.

Correct.

App. 45
Q.

Let me –
THE COURT:

Let her finish the question.

BY MS. MILLER:
Q.

– document that said the word “Marshal” on

A.

Correct.

Q.

Not a badge?

A.

Correct.

Q.

Not an ID card?

A.

Correct.

it?

*

*

*

Guillory – cross by Miller
*

*

*

[231] Q. Now, you don’t – when you’re on duty,
you don’t need some kind of a special permit to carry
the firearm like that?
A.

No.

Q. You don’t – specifically you don’t need a concealed carry license?
A.

No.

Q. And, in fact, you don’t have a concealed carry
license?
A.

I don’t have one, no.

App. 46
Q.

Being a law enforcement officer is enough?

A.

Yes.

Q. And now, if you want to carry off duty, you also
wouldn’t need a concealed carry license?
A.

I would not.

Q. Right. And, again, that’s because you’re a law
enforcement officer?
A.

Yes.
*

*

*

[236] Q. This is a true and accurate copy of the
contact card that you filled out that night?
A.

Yes.
*

*

*

[237] Q. And in this report, you wrote that Mr.
Bonin had a U.S. fugitive enforcement badge?
A.

Yes.

Q. And that’s the ID – the second ID card that he
showed you?
A.
Q.
on it?
A.

Yes.
It said the words “U.S. fugitive enforcement”
Yes.
*

*

*

App. 47
Q. Thank you. That ID card did not say the
words “U.S. Marshal” on it?
A.

No.
*

*

*

[238] Q. Now, you did refer to a badge. You did
not see the words “U.S. Marshal” on that badge?
A.

I did not notice a U.S. Marshal on the badge.
*

*

*

App. 48
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
UNITED STATES
OF AMERICA,
Plaintiff,
vs.
MICHAEL BONIN,
Defendant.

)
)
)
)
)
)
)
)

No. 15 CR 22
Chicago, Illinois
April 4, 2017
10:06 a.m.

VOLUME NO. 2 AM
TRANSCRIPT OF PROCEEDINGS – Trial
BEFORE THE HONORABLE DONALD E. WALTER
and a Jury
APPEARANCES:
For the Plaintiff:

HON. JOEL R. LEVIN
Acting United States Attorney
BY: MR. ERIC S. PRUITT
MR. MATTHEW L.
KUTCHER
Assistant United States Attorneys
219 South Dearborn Street,
Suite 500
Chicago, Illinois 60604
(312) 353-5300
eric.pruitt@usdoj.gov
matthew.kutcher@usdoj.gov

App. 49
For the Defendant:

UNIVERSITY OF CHICAGO
LAW SCHOOL
BY: MS. JUDITH P. MILLER
Federal Criminal Justice Clinic
Mandel Legal Aid Clinic
6020 South University Avenue
Chicago, Illinois 60637
(773) 702-9611
jpmiller@uchicago.edu

Official Court
Reporter:

NANCY L. BISTANY, CSR,
RPR, FCRR
219 South Dearborn Street,
Room 1706
Chicago, Illinois 60604
(312) 435-7626
nancy_bistany@ilnd.uscourts.gov

For the Defendant:

LOEVY & LOEVY ATTORNEYS
AT LAW
BY: MR. DAVID BENJAMIN
OWENS
311 North Aberdeen Street,
Third Floor
Chicago, Illinois 60607
(312) 243-5900
david@loevy.com

Also Present:

MR. ANDREW MacKIE-MASON
*

*

*

Bonin – direct by Miller
*

*

*

[290] Q. All right. And, Mr. Bonin, what were
your plans for the evening?

App. 50
A. I was – started off to be a nice quiet night, me
and my girlfriend. We wanted to go see a movie.
*

*

*

[291] Q. And now, Mr. Bonin, when you got out of
your car and you walked up to the movie theater room,
what were you wearing?
A. Oh, I had a – a North Face jogging jacket on –
it’s pretty kind of short – and a long dress jacket on at
the time.
Q.

And were you carrying a firearm?

A.

Yes, I was.

Q. Can you explain to the jury, where were you
carrying the firearm?
A. On my right hip on my belt, up – up high. It’s
a high-rise holster, yes.
Q. And where was the firearm in relation to the
North Face jacket and the long coat?
A. Oh, it was concealed. It was underneath my –
underneath my jackets.
*

*

*

[293] Q. I want to ask you about raising your
hands up.
When you raised your hands up like this (indicating) what were you wearing at the time?
A.

I had a – that jogging jacket on.

App. 51
Q.

Did you still have your long coat on?

A.

No. I had taken it off prior.

Q. And what happened to the jogging jacket
when you raised your arms up in the air?
A. Well, when I raised my hands up, you know,
for a moment, I [294] said, “Please back away. I just had
a very disturbing phone call.” And I got off the phone
like he asked.
And my gun – I guess saw my gun.
*

*

*

[300] Q. Now, Mr. Bonin, I know this isn’t as good
of a copy, and it’s in black and white, but this part –
what is this that we’re looking at?
A.
to us.

This is the backside of the IDs that was issued
*

*

*

And it also states on this – on the backside there
the laws that allows us to pursue fugitives as the
United States Marshals’ jobs are. And that’s where the
confusion is.
*

*

*

App. 52
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
)
)
)
)

USA
v.
Michael D. Bonin

Case No: 15 CR 22
Judge: Donald E. Walter

Jury Instructions.
Date: 4/5/17
*

*

*

The indictment charges the defendant with falsely
assuming or pretending to be an officer or employee of
the United States Marshals Service. In order for you to
find the defendant guilty of these charges, the government must prove each of the following two elements
beyond a reasonable doubt:
1.

That the defendant falsely assumed or pretended to have been an officer or employee
acting under authority of the United States
Marshals Service; and

2.

That the defendant acted as such.

If you find from your consideration of all the evidence that the government has proved each of these
elements beyond a reasonable doubt as to the charge
you are considering, then you should find the defendant guilty of that charge.
If, on the other hand, you find from your consideration of all the evidence that the government has failed
to prove any one of these elements beyond a reasonable

App. 53
doubt as to the charge you are considering, then you
should find the defendant not guilty of that charge.
*

*

*

With respect to acting “as such,” the government
must prove that the defendant acted in a manner consistent with his pretended authority as an officer or
employee of the United States Marshals Service.
*

*

*

App. 54
IN THE
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
UNITED STATES
OF AMERICA,
v.
MICHAEL BONIN

)
)
)
)
)

Hon. Robert W. Gettleman
No. 15-CR-22

MICHAEL BONIN’S CORRECTED
JURY INSTRUCTIONS NOS. 8(4), 14
Defendant MICHAEL BONIN, by his attorneys,
JUDITH MILLER, of the University of Chicago Law
School’s Federal Criminal Justice Clinic, and DAVID
OWENS, of Loevy & Loevy, respectfully submits the
following corrected jury instructions.
Dated: November 30, 2016 Respectfully submitted,
/s/ Judith P. Miller
JUDITH P. MILLER
Attorney for Michael Bonin
/s/ David B. Owens
DAVID B. OWENS
Attorney for Michael Bonin

App. 55
JUDITH P. MILLER
Assistant Clinical Professor of Law
Federal Criminal Justice Clinic
University of Chicago Law School
6020 South University Avenue
Chicago, Illinois 60637
jpmiller@uchicago.edu
773-834-1598
David B. Owens
LOEVY & LOEVY
311 N. Aberdeen St. 3 Fl.
Chicago, IL 60607
*

*

*

DEFENDANT’S PROPOSED INSTRUCTION 8
(CORRECTED): Elements of the Offense
The government has accused Mr. Bonin of falsely
assuming and pretending to be an officer and employee
acting under the authority of the United States Marshals Service, and acting as such on two occasions:
January 15, 2013, in Markham (Count I), and December 4, 2014, in Chicago (Count II). In order for you [sic]
find the defendant guilty of either charge, the government must prove each of the following four elements
beyond a reasonable doubt for that count:
1.

Mr. Bonin falsely represented himself to be
employed as a United States Marshal, and he
falsely represented himself to be acting under
the authority of the United States Marshal
Service.

2.

Mr. Bonin committed an overt act that asserted authority as a United States Marshal.

App. 56
3.

Mr. Bonin did so knowingly and with the intent to defraud another person.

4.

The false representations and act in fact
caused the other person to change his or her
behavior.

If you find from your consideration of all the evidence that the government has proved all of these elements beyond a reasonable doubt as to the charge you
are considering, then you may find Mr. Bonin guilty of
that charge.
If, on the other hand, you find from your consideration of all the evidence that the government has failed
to prove any part of even just one of these elements
beyond a reasonable doubt as to the charge you are
considering, then you must find Mr. Bonin not guilty of
that charge.
*

*

*

App. 57
IN THE
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
UNITED STATES
OF AMERICA
v.
MICHAEL BONIN

)
) Hon. Robert W. Gettleman
)
) No. 15-CR-22
)

MICHAEL BONIN’S PROPOSED
JURY INSTRUCITONS [sic]
Defendant MICHAEL BONIN, by his attorneys,
JUDITH MILLER, of the University of Chicago Law
School’s Federal Criminal Justice Clinic, and DAVID
OWENS, of Loevy & Loevy, respectfully submits the
following proposed jury instructions and verdict forms.
Mr. Bonin reserves the right to propose additional instructions as the evidence develops, including a theory
of defense instruction.
Dated: November 17, 2016
Respectfully submitted,
/s/ Judith P. Miller
JUDITH P. MILLER
Attorney for Michael Bonin
/s/ David B. Owens
DAVID B. OWENS
Attorney for Michael Bonin

App. 58
JUDITH P. MILLER
Assistant Clinical Professor of Law
Federal Criminal Justice Clinic
University of Chicago Law School
6020 South University Avenue
Chicago, Illinois 60637
jpmiller@uchicago.edu
773-834-1598
David B. Owens
LOEVY & LOEVY
311 N. Aberdeen St. 3 Fl.
Chicago, IL 60607
(312) 590-5449
david@loevy.com
Written with:
Andrew MacKie-Mason, University of Chicago Law
Student, Class of 2017
Roisin Duffy-Gideon, University of Chicago Law
Student, Class of 2018
*

*

*

DEFENDANT’S PROPOSED INSTRUCTION
NO. 11: Asserting authority
A person performs an overt act that asserts pretended authority as a United States Marshal only if
the defendant performs an overt act that asserts, implicitly or explicitly, governmental power that he
claims to have by virtue [sic] being a United States
Marshal. Simply pretending to be a United States Marshal is not an overt act, nor is being a braggart. Instead, a person must claim a legal exemption or
entitlement because of his pretended status as an

App. 59
officer of the United States. For example, it would not
violate this statute for a person to falsely represent
himself as an off-duty United States Marshal so that a
bartender gives him a free drink, as a courtesy. Nor
would it violate this statute for a person to falsely represent himself as a United States Marshal to his parents so that they feel proud of him and invite him to
Thanksgiving dinner. The reason is that in both examples the person has not performed an overt act that asserts a legal exemption or entitlement to a benefit on
the basis of his asserted authority.
DEFENDANT’S PROPOSED INSTRUCTION NO.
12: Intent to Defraud
A defendant acts with intend to defraud if he
knowingly takes an action with the intent to deceive or
cheat someone else, in order to cause that person to do
something he or she would not otherwise have done by
virtue of his pretended government authority
*

*

*

DEFENDANT’S PROPOSED INSTRUCTION 17:
First Amendment
The First Amendment to the United States Constitution protects freedom of speech. Freedom of
speech includes spoken and written words as well as
expressive conduct. The First Amendment protects
expression that is unpleasant, offensive, or not valuable, including false speech and deceptive conduct.
Under the First Amendment, the government cannot
criminalize false speech, without more. The First

App. 60
Amendment also prevents the government from criminalizing mere hyperbole, sleaziness, bad behavior,
bragging, or puffery, or the expression of an opinion. It
is not illegal to simply pretend to be a United States
Marshal.
Mr. Bonin does not have to prove that his words or
actions were protected speech.
*

*

*

